<html>
<title> - THE REVITALIZATION OF THE ENVIRONMENTAL PROTECTION AGENCY'S BROWNFIELDS PROGRAM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
      THE REVITALIZATION OF THE ENVIRONMENTAL PROTECTION AGENCY'S 
                          BROWNFIELDS PROGRAM 

=======================================================================

                               (110-100)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 14, 2008

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

40-823 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
















































             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ACURI, New York           CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin               VACANCY
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
VACANCY

                                  (ii)

  


            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

GENE TAYLOR, Mississippi             JOHN J. DUNCAN, Jr., Tennessee
BRIAN BAIRD, Washington              WAYNE T. GILCHREST, Maryland
DORIS O. MATSUI, California          VERNON J. EHLERS, Michigan
JERRY F. COSTELLO, Illinois          FRANK A. LoBIONDO, New Jersey
TIMOTHY H. BISHOP, New York          GARY G. MILLER, California
BRIAN HIGGINS, New York              ROBIN HAYES, North Carolina
RUSS CARNAHAN, Missouri              HENRY E. BROWN, Jr., South 
JOHN T. SALAZAR, Colorado            Carolina
MAZIE K. HIRONO, Hawaii              TODD RUSSELL PLATTS, Pennsylvania
HEATH SHULER, North Carolina         BILL SHUSTER, Pennsylvania
HARRY E. MITCHELL, Arizaon           JOHN BOOZMAN, Arkansas
JOHN J. HALL, New York               CONNIE MACK, Florida
STEVE KAGEN, Wisconsin               JOHN R. `RANDY' KUHL, Jr., New 
JERRY MCNERNEY, California, Vice     York
Chair                                CHARLES W. BOUSTANY, Jr., 
ELEANOR HOLMES NORTON, District of   Louisiana
Columbia                             JEAN SCHMIDT, Ohio
BOB FILNER, California               CANDICE S. MILLER, Michigan
ELLEN O. TAUSCHER, California        THELMA D. DRAKE, Virginia
MICHAEL E. CAPUANO, Massachusetts    VACANCY
GRACE F. NAPOLITANO, California      JOHN L. MICA, Florida
MICHAEL A ARCURI, New York             (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)































                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Albrecht, Mark, National Brownfields Association, Brownfields 
  Manager, Mayor's Office of Economic Development, City of Akron.    14
Bodine, Hon. Susan Parker, Assistant Administrator for Solid 
  Waste and Emergency Response, U.S. Environmental Protection 
  Agency.........................................................     3
Eben, Jerome Leslie, Immediate Past President, American Institute 
  of Architects New Jersey.......................................    14
Hill, Hon. Vonciel Jones, Council Member, City of Dallas.........     3
Leigh, Nancey Green, Professor, College of Architecture, Georgia 
  Institute of Technology........................................    14
McCullough, Steven, President/CEO, Bethel New Life, Inc..........    14
Silversmith, Gary, President, P&L Investments, LLC...............    14
Zone, Hon. Matthew, National League of Cities, Council Member, 
  City of Cleveland..............................................     3

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    25
Costello, Hon. Jerry F., of Illinois.............................    26
Mitchell, Hon. Harry E., of Arizona..............................    28

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Albrecht, Mark...................................................    31
Bodine, Hon. Susan Parker........................................    33
Eben, Jerome Leslie..............................................    47
Hill, Hon. Vonciel Jones.........................................   107
Leigh, Nancey Green..............................................   117
McCullough, Steven...............................................   130
Silversmith, Gary Jay............................................   139
Zone, Hon. Matthew...............................................   148

                       SUBMISSIONS FOR THE RECORD

Bodine, Hon. Susan Parker, Assistant Administrator for Solid 
  Waste and Emergency Response, U.S. Environmental Protection 
  Agency, responses to questions from the Subcommittee...........    41
Eben, Jerome Leslie, Immediate Past President, American Institute 
  of Architects New Jersey:

  Response to question from Rep. Oberstar........................    54
  ``Costing Green: A Comprehensive Cost Database and Budgeting 
    Methodology,'' Lisa Fay Matthiessen, Peter Morris, Davis 
    Langdon......................................................    57
  ``Cost of Green Revisited: Reexamining the Feasibility and Cost 
    Impact of Sustainable Design in the Light of Increased Market 
    Adoption,'' Lisa Fay Matthiessen, Peter Morris, Davis Langdon    83
Hill, Hon. Vonciel Jones, Council Member, City of Dallas, 
  response to question from the Subcommittee.....................   116
Leigh, Nancey Green, Professor, College of Architecture, Georgia 
  Institute of Technology, responses to questions from the 
  Subcommittee...................................................   128
McCullough, Steven, President/CEO, Bethel New Life, Inc., 
  responses to questions from the Subcommittee...................   137

                        ADDITIONS TO THE RECORD

Building and Construction Trades Department, AFL-CIO, Mark H. 
  Ayers, President, written statement............................   153
City of New York, Mayor's Office of Environmental Coordination, 
  Robert Kulikowski, Director, written statement.................   156
National Brownfields Coalition, written statement................    00
National Construction Alliance, Raymond J. Poupore, Executive 
  Vice President, written statement..............................   166

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  HEARING ON REVITALIZATION OF THE ENVIRONMENTAL PROTECTION AGENCY'S 
                          BROWNFIELEDS PROGRAM

                              ----------                              


                      Thursday, February 14, 2008

                   House of Representatives
    Committee on Transportation and Infrastructure,
            Subcommittee on Water Resources and Environment
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 4:00 p.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eddie 
Bernice Johnson [Chairman of the Subcommittee] presiding.
    Ms. Johnson. The Subcommittee will come to order.
    I apologize for the schedule we have had to endure this 
afternoon. I must announce that I have to leave shortly and 
hope to return in a little while.
    I welcome everyone to our hearing today on the 
reauthorization of the Environmental Protection Agency's 
Brownfield program. I have deep appreciation for the subject 
matter of today's hearing, because I have been able to witness 
first-hand the many positive effects that brownfields 
redevelopment affords the local communities.
    In the heart of my Congressional district, very close to my 
district office lies a 72-acre site known as the Victory Park. 
This former industrial wasteland, once polluted by an old meat-
packing plant, a paint plant, a train yard, and a 100 year-old 
grain silo that had been forgotten by time, is now the home of 
American Airlines Center, the W. Dallas Hotel, and high-rise 
apartments and condominiums as well as other retail and 
commercial enterprises. This dramatic turnaround would not have 
been possible without the assistance of the State's voluntary 
cleanup program and the partnership of EPA, the city of Dallas 
and private developers.
    Instead of blight and depressed areas, this Dallas 
community now enjoys the benefits of a vibrant economic growth, 
expanded employment and increased revenue from productive use 
of the properties. Simply put, for Dallas the brownfields 
program has been overwhelmingly successful. That can be and 
should be replicated throughout the Nation.
    Today we begin the discussion on reauthorization and 
revitalization of the brownfields program. This program, which 
was conceived and initiated in the Clinton Administration and 
legislatively enacted in the Bush Administration, has proven to 
be a necessary catalyst to the revitalization of under-utilized 
sites and the preservation of undeveloped areas.
    The brownfields program generates jobs and economic 
activities, allows for the efficient use of transportation 
resources, and helps restore and maintain the environment. 
However, the brownfields program has been unnecessarily 
constrained since its enactment, principally by under-
investment by this Administration and the appropriations 
process.
    As President Bush said when signing the Small Business 
Relief and the Brownfields Revitalization Act of 2002, this is 
a good jobs creation program. But I think he has forgotten this 
fact. That is why it is so frustrating to see the brownfields 
program consistently and dramatically underfunded. Congress 
authorized and the President supported a funding level of $200 
million annually for site assessment and cleanup.
    Yet, appropriations for the brownfields assessment and 
cleanup program peaked at $97.7 million in fiscal year 2002. 
Since that time, appropriations for the site assessment and 
cleanup component of brownfields grants have hovered right 
around $90 million annually. I applaud the President for 
requesting a slightly increased funding level for the site 
assessment and cleanup grants in its fiscal year 2009 budget.
    However, the addition of $100,000 proposed will not likely 
have a significant impact in addressing the backlog of pending 
brownfield applications. For example, last year EPA received 
810 proposals for funding that passed its threshold 
requirements for eligibility. Yet EPA could only fund 294 
individual proposals, or just 36 percent of the requests for 
funding. While this fact is in itself concerning, so is the 
fact that the gap between eligible project applications and 
available funding continues to widen.
    For example, just two years ago, EPA could fund roughly one 
in three applications. However, as more communities learn of 
the potential benefits of brownfield remediation, we should 
expect that the number of applications for funding will 
continue to increase. I expect that many of our witnesses this 
afternoon will discuss the importance of brownfields cleanup 
for the revitalization of neighborhoods, while placing under-
utilized properties back on local tax rolls, and for the 
protection of human health and the environment.
    However, I believe the restoration of brownfields also has 
a tremendous economic stimulus effect on our cities and 
neighborhoods. In these uncertain economic times, we need to 
focus our efforts on ways that the Federal investments can have 
a real beneficial impact on the lives and livelihoods of our 
citizens.
    I can think of few more beneficial impacts than the 
creation of economic development. As EPA stated last week in 
its Committee budget briefings, the brownfields program has 
resulted in the assessment of more than 11,500 properties and 
helped create more than 47,000 jobs. If this is the success 
rate of an underfunded program, imagine the economic impact and 
potential for job creation that could come from actually 
funding all of the applications that are submitted to the 
agency each year.
    I do not believe that we have seen all the good that this 
program can do for our communities and for helping American 
families. I am glad that the Subcommittee begins today the 
discussion of reauthorization and revitalization of the 
brownfields program. I welcome our witnesses here today.
    We await my partner here, the Ranking Member. While we do, 
I want to welcome my councilwoman from Dallas, Texas, the 
Honorable Vonciel Jones Hill, who is a very bright and very 
contributing member of the Dallas City Council. Thank you for 
being here.
    We are going to ask unanimous consent to place all of our 
formal statements into the record so we can hear our witnesses.
    I want to thank our Members here for having the day that we 
have had and still being present. Statements from the National 
Construction Alliance, the Building Construction Trades 
Department, the City of New York's Office of Environmental 
Coordination and the National Brownfields Coalition all will be 
made part of the record, without objection.
    We are pleased to have three very distinguished witnesses 
on our first panel here this afternoon. First, we have the 
Honorable Susan Parker Bodine, Assistant Administrator for 
Environmental Protection Agency's Office of Solid Waste and 
Emergency Response. Next we have the Honorable Vonciel Jones 
Hill, council member for the City of Dallas, Texas. And 
finally, we have the Honorable Matthew Zone, council member for 
the City of Cleveland, Ohio, who is speaking on behalf of the 
National League of Cities.
    We are pleased that you were able to make it this 
afternoon, and your full statements will be placed into the 
record. We ask that you try to limit your testimony to five 
minutes, and we can read the entire record.
    We will proceed with Mr. Zone, who has a plane to catch 
shortly. Mr. Baird will take over as Chair.
    Mr. Baird. [Presiding] We apologize for the transition. As 
you know, it has been a hectic day. We appreciate your 
perseverance and we are glad to be here. Brownfields is 
tremendously important, and we have a number of sites in my 
district, probably every Member does. We look forward to your 
testimony. Mr. Zone, we would be happy to hear from you to 
begin with.

  TESTIMONY OF THE HONORABLE MATTHEW ZONE, NATIONAL LEAGUE OF 
CITIES, COUNCIL MEMBER, CITY OF CLEVELAND; THE HONORABLE SUSAN 
  PARKER BODINE, ASSISTANT ADMINISTRATOR FOR SOLID WASTE AND 
 EMERGENCY RESPONSE, U.S. ENVIRONMENTAL PROTECTION AGENCY; THE 
  HONORABLE VONCIEL JONES HILL, COUNCIL MEMBER, CITY OF DALLAS

    Mr. Zone. Thank you, Mr. Chairman and Members of the 
Committee. I am Matt Zone and I am a council member from 
Cleveland, Ohio.
    I am here today on behalf of the National League of Cities, 
the oldest and largest organization representing local elected 
officials in America's cities and towns. I appreciate the 
opportunity to present the views of local elected officials on 
the revitalization of the Environmental Protection Agency's 
brownfields program.
    The City of Cleveland has had a successful partnership with 
the EPA brownfields program in redeveloping our urban 
landscape. Since 2004, Cleveland has received $800,000 in EPA 
brownfields assessment grant funds that has led to cleanup of 
nearly 100 acres. Assessment dollars are critical to local 
governments, as they support the first and most risky phase of 
the redevelopment project. Assessment funds granted by the EPA 
brownfields program assists local governments in evaluating the 
extent of contamination and the potential costs for 
remediation.
    The City of Cleveland has successfully used these grants to 
leverage over $15 million. Without these funds, many projects 
would not have gone forward. In addition to the assessment 
dollars, the City of Cleveland has also received technical 
assistance from EPA. The assistance is just as critical to 
local governments as the grant funds. With the technical 
assistance of an expert brownfields professional from the EPA 
Region V brownfields office, the City's development department 
has increased their capacity to redevelop brownfields in 
Cleveland.
    The EPA brownfields program is vital for local governments 
in aiding the redevelopment efforts. But much work remains to 
be done. NLC urges Congress to increase the overall funding 
authorization level for the EPA brownfields program, to 
increase the caps on the assessment grants amounts, whether 
site-specific or community-wide and to increase the technical 
assistance offered to communities. Additionally, NLC asks 
Congress to enact legislation addressing and resolving the 
disincentives created by the potential liability to facilitate 
re-use of brownfields properties. Such legislation should 
provide a waiver, a definitive limitation or an elimination of 
liability for non-contributing local governments coming to 
title of previously contaminated properties involuntarily. This 
is a real problem in our city, with one site specifically that 
you will hear about in a minute, Mr. Chairman.
    Cleveland truly considers the EPA to be a partner in the 
area of the brownfields redevelopment. But I come to you today 
with a pressing issue that could jeopardize Cleveland's and 
other cities' strategic redevelopment policies. As an older 
industrial city, Cleveland's legacy of manufacturing and 
commerce is now symbolized by numerous abandoned structures, 
obsolete buildings, leaky underground storage tanks and 
polluted properties. The impact of our industrial legacy has 
spread across our neighborhoods like cancer, killing once 
vibrant areas and leaving behind dead zones.
    The factories that once built America and employed 
thousands of Clevelanders are no longer an asset, they are a 
liability. Our current vacant property portfolio puts my city 
at risk. Local governments need support of Congress and our 
Federal agencies to revitalize the abandoned properties and the 
buildings that are growing in number. These abandoned buildings 
have compounded our financial problems and cost our city 
millions by shrinking our tax base and undermining property 
values.
    In fact, our city has had to increase its demolition budget 
four-fold just since 2006. We anticipate spending over $9 
million this year to demolish dangerous abandoned structures 
that threaten the safety of our cities. Local governments 
rightly approach brownfields redevelopment as an economic 
development activity. However, strategically redeveloping these 
contaminated properties means much more than dollars and taxes. 
It means correcting the environmental injustices that are 
unduly thrown upon those living in our impoverished 
neighborhoods. It means protecting our first responders by 
eliminating contaminated enclaves of criminal activity and 
structures of high fire risk. For Cleveland, it means 
protecting Lake Erie. It also means creating a more sustainable 
future.
    Finally, the issue of municipal liability for cleanup costs 
is a concern for local governments, particularly if they were 
not involved in the contamination of the site. As a general 
rule, under the current law, local governments have a 
disincentive to clean up and develop brownfields properties 
because of the liability they could face. Often, as involuntary 
owners of brownfields properties, many local governments are 
wrongly designated potentially responsible for parties and held 
liable for the cleanup.
    The fear of such designation has led municipalities 
choosing not to invest in the cleanup or the development of 
land. The City of Cleveland, through its partnership with the 
EPA and the State of Ohio, implemented a land bank program in 
2005. This industrial land bank program targeted former 
industrial and commercial properties for redevelopment. Our 
program's rationale is simple, to strategically invest our 
limited resources in strategic economic development areas. The 
land bank program allows the city to take a holistic approach 
to brownfields and redevelopment. Currently, the city is 
redeveloping nearly 50 acres of brownfields properties through 
our program and has invested over $16 million in demolition and 
cleanup costs. One property of particular interest is referred 
to as the Trinity Building. This is the picture you are seeing 
on the screen here. This site is posing huge challenges to the 
city due to the lack of Federal liability protections afforded 
to local governments.
    Mr. Baird. Mr. Zone, I neglected earlier to remind the 
witnesses we have a five-minute limit. I see you have quite a 
bit more in your written comments, so if I can ask you to 
conclude here and we will take the written comments into 
account. That time we will have time for a little Q&A as well.
    Mr. Zone. Sure. Just in closing, Mr. Chairman, I believe 
our city has enough experience and expertise to address these 
brownfields in our neighborhoods. But our story and experience 
are no different than any other American city with an 
industrial legacy. Congress has shown great leadership, 
amending CERCLA in 2002. While progress has been made and 
beneficial relationships formed between local and Federal 
entities, the Federal Government must continue its efforts and 
commitment toward this program.
    On behalf of the National League of Cities and the City of 
Cleveland, Mr. Chairman, I thank you.
    Mr. Baird. Thank you, Mr. Zone. I think you raise some 
outstanding points.
    We have been joined by John Boozman from Oklahoma.
    Mr. Zone. Sir, thank you and my colleagues for letting me 
go out of order. I do have a 6:20 flight, so if I walk out 
during questioning, please pardon me.
    Mr. Baird. Our apologies to all of you for the delay.
    Mr. Boozman. I have a statement that I would like to put 
into the record, with your permission.
    Mr. Baird. Without objection, so ordered.
    Administrator Bodine?
    Ms. Bodine. Thank you, Mr. Chairman and Members of the 
Subcommittee. It is a pleasure to be here once again before the 
Water Resources and Environment Subcommittee. It is a 
particular pleasure to talk about the brownfields program.
    More than a decade ago, local governments, States and EPA 
all identified a problem that local communities were facing 
when they were trying to revitalize properties in their 
communities that were either contaminated or potentially 
contaminated. The private and public sectors were extremely 
hesitant to get involved with these sites, which we now call 
brownfields sites. And some of that concern was over Superfund 
liability, which could hold someone responsible for cleaning up 
property contamination that was caused by a prior owner.
    Some of that concern, also, was simply fear of the unknown. 
Nobody wanted to get involved in a property that might be 
contaminated because they couldn't estimate how much it was 
going to cost to clean up. So it was an unknown risk.
    Now, it is important to understand when we talk about the 
brownfields program that these are properties that aren't 
contaminated enough to rise to a level of Federal concern under 
our Federal cleanup programs. These are not Superfund sites. 
But we all recognize that the fear of Federal liability has 
acted as a barrier to redevelopment of these properties.
    Now, to address the liability concern, EPA did develop 
tools, like prospective purchaser agreements, and States 
developed voluntary cleanup programs. EPA worked with States 
and recognized the strength and validity of these programs and 
recognized them as appropriate mechanisms for getting these 
sites cleaned up in lieu of Federal liability. We continue to 
enter into memoranda of agreements with States to recognize 
strong State programs, including State programs that take a one 
cleanup program approach, so that they can clean up RCRA sites 
or PCB sites or brownfields sites or even oil sites all under 
the same program.
    To address the concern over the uncertainty at these sites, 
EPA developed a program to provide grants to local governments 
to inventory and assess contamination. Once cleanup costs were 
quantified, then developers could make the business decision 
whether or not to invest in contaminated property. Over the 
years, EPA added grants to capitalize revolving loan funds, to 
provide seed money for cleanup, and the agency also provided 
job training grants to provide employment opportunities in the 
communities where brownfields were located.
    Thanks to the work of the Transportation and Infrastructure 
Committee, and of course other Committees in Congress, 
President Bush was able to sign into law the Small Business 
Liability Relief and Brownfields Revitalization Act in January 
2002. That law broadened EPA's brownfields program to include 
cleanup grants, to provide seed money for cleanup, and provide 
statutory liability protection to promote private sector 
participation in brownfields cleanup and redevelopment.
    I am very pleased to report that EPA's brownfields program 
has been highly successful. With the over $660 million in seed 
money that EPA has provided for assessments, revolving loan 
fund capitalization and cleanup grants, there have been more 
than 11,500 property assessments and that work has leveraged 
over $10.3 billion in cleanup and redevelopment investment. All 
of that together has leveraged more than 47,000 jobs.
    Helped by the over $300 million that EPA has provided for 
State programs, and tribal programs as well, States and tribes 
have continued to develop and enhance their programs, which 
have resulted in the cleanup of over 70,000 properties. The 
Federal investment in brownfields has produced significant 
results. The public funding has not just created a return on 
the investment, but has provided long-term sustainability 
benefits, helping to preserve green space.
    Our grant selection program for 2008 is underway. The 
deadline was in October, we received over 800 applications. 
Last year we received about 801. Of those, 770 were actually 
legally eligible to receive funding, and we funded 294 
proposals. We plan to fund a similar number this year.
    The way these proposals are selected is through an 
evaluation process. There are 10 different panels of agency 
staff, and each panel has one headquarters person or one person 
from another Federal agency. They review the proposals and they 
rate them based on the environmental benefits, the cleanup 
benefits, the community benefits, and the economic benefits. 
The proposals are also evaluated based on the programmatic 
ability to clean up these sites.
    The ones that are funded are the ones that are rated 
highest by these panels, so we can be confident we are getting 
the best return on the Federal investment. To reach more 
communities in 2009, we are looking at potential changes to our 
grant proposal guidelines, so that we can allow coalitions of 
communities to apply for up to a million dollars for assessment 
grant funding. The purpose of that is to allow small and rural 
communities to partner with larger communities or cities or 
counties or States that have the programmatic capability to 
manage these grants that the small, rural communities might not 
have. That makes them eligible for the funding and lets the 
funding reach more communities.
    I see my time is up. I just want to let you know that we 
are continuing to focus on streamlining grants. We are 
continuing to focus on sustainability and in particular, we are 
collecting data from all of our grant recipients about the 
contaminants that are addressed, the media that are addressed, 
the cleanup activity, the institutional controls and the number 
of acres that are being made available for use. All that goes 
into a public data base, all that information is publicly-
available.
    Thank you very much.
    Mr. Baird. Thank you, Administrator Bodine.
    Ms. Jones Hill.
    Ms. Jones Hill. Thank you, Mr. Chairman, Members of the 
Subcommittee. Thank you for providing me this opportunity to 
promote the brownfields program and Dallas' successful 13-year 
partnership with the Environmental Protection Agency. I am 
Vonciel Jones Hill, councilwoman from the City of Dallas, and I 
am here to discuss why the brownfields program is extremely 
important for community revitalization.
    Since the program began in 1995, the City of Dallas has 
received $1.12 million in EPA assessment grants for brownfields 
revitalization, and has been able to leverage more than $3.4 
billion in private and public investment to assist in the 
revitalization of 47 brownfields sites. With our assessment 
dollars, the City of Dallas has conducted 32 phase one 
environmental site assessments and 9 phase two assessments. We 
have leveraged more than 6,800 construction and redevelopment 
jobs and more than $13.5 million in private sector cleanup 
funding in 2008.
    Brownfields redevelopment is not just an evolving issue for 
developers, it is another option to redevelop deteriorating 
inner city neighborhoods, create jobs, enhance the local tax 
base and reduce crime. I am proud to say that Dallas 
exemplifies the success of the brownfields program well. 
Accordingly, in 1998, the EPA designated Dallas as brownfields 
showcase community. Please allow me to highlight two of Dallas' 
nationally-recognized brownfields success stories.
    Victory Park, previously mentioned by Chairwoman Johnson, 
is a $3 billion multi-use development offering retail shops, 
restaurants, office space, residential units, hotels and 
entertainment venues, such as the American Airlines Center, 
which is the home of the Dallas Stars and the Dallas Mavericks. 
Victory Park is a national model for the importance and success 
of a public-private partnership. The 73-acre site is adjacent 
to downtown Dallas and was a neglected brownfield for many 
years. It is now one of the city's most thriving areas, teeming 
with jobs and activities.
    In 2001, EPA recognized the American Airlines Center and 
Victory Park as one of the Nation's largest and most successful 
brownfields projects, through presentation of the EPA's Phoenix 
Award. The development also received the Phoenix People's 
Choice award that same year. Victory Park is expected to 
generate $1 billion annually and has already created 1,200 jobs 
with many more expected in 2009.
    Next is the Jack Evans Police Headquarters facility, a $59 
million city project, just south of the central business 
district. The site was donated by a developer to enhance 
security and reduce crime in a neighborhood emerging from 
decades of decline. The new facility serves as a model for the 
Dallas green building program and in 2005, received a 
leadership in energy and environmental design silver 
certification. The Jack Evans Police Headquarters is part of a 
larger transit-oriented development revitalization effort. It 
is one block from the Dallas Area Rapid Transit Cedars light 
rail station. The area includes another successful brownfields 
project, the 1.2 million square foot South Side on Lamar 
Complex, which houses 457 residential units and 120,000 square 
feet of commercial and retail space. In 2003, the Phoenix Award 
was awarded to the Jack Evans police headquarters as well.
    In summary, the EPA brownfields program has been a 
remarkable, remarkable success in Dallas and has led to the 
revitalization of what was once an abandoned, neglected area of 
our city. I urge you to reauthorize the Small Business 
Liability Relief and Brownfields Revitalization Act to continue 
this vitally important effort.
    Thank you, Mr. Chair. Thank you, Committee.
    Mr. Baird. Ms. Jones Hill, to all our witnesses, thank you 
very, very much for your interesting and informative testimony. 
It is very pleasant to see individuals from cities who have 
used the Federal program to great benefit. We thank you for 
your testimony on that, and also for your very cogent 
recommendations.
    Ms. Bodine, I have just a couple of quick questions, and 
then I will yield to Mr. Boozman. At one point I understand 
there was a program called Brownfields to Brightfields, which I 
think Secretary of Energy then-Bill Richardson established, 
which was designed to promote brownfield usage for renewable 
energy, like solar installations. I think a number of Federal 
agencies have surplus property that may well qualify as 
brownfields, you think of the military bases or others. I am 
wondering, as part of reauthorization, do you know if EPA has 
any thoughts about using Brownfields to Brightfields kinds of 
approaches to promote renewable energy resources?
    Ms. Bodine. In our existing grant guidelines we have in 
there an evaluation of proposals based on sustainable re-use of 
brownfields. So the proposals are evaluated and they get extra 
points to the extent that they are promoting sustainable re-
use. That of course could include clean energy uses as well as 
green buildings, as well as low-impact development. So I guess 
I would urge you to continue to consider the broad range of 
sustainability efforts that could be leveraged with brownfield 
dollars, so that then grantees can pick their target of 
opportunity, where they see the greatest opportunity to 
leverage to get the sustainable benefits, instead of focusing 
on one particular benefit over another.
    Mr. Baird. Thank you for that.
    You heard some comments from Mr. Zone and Ms. Jones Hill, 
and we will hear testimony in a minute from the folks in the 
National Brownfields Association, as well as other folks 
involved with brownfields. As we look, in this Committee, 
toward reauthorization of the brownfields program, does the 
Administration at this point have any particular 
recommendations that you intend to make that you think we could 
use to improve this program, and also, do you have any comments 
on some of the suggestions offered by Mr. Zone in his 
testimony, or, I don't know if you have had a chance to look at 
the testimony of the other witnesses who will follow in the 
second panel.
    Ms. Bodine. We have not developed a legislative proposal. 
We would be happy to work with your staff in offering technical 
assistance. There are some areas where there could be some 
greater clarity and some technical improvements that I think we 
should definitely be providing.
    Mr. Baird. One of the areas in which we see some proposals 
is to expand the qualification criteria for brownfields. Are 
there concerns about, if we expand it, does that dilute, given 
that we are already under-funding it relative to authorized 
levels, are there any concerns about, by expanding the 
eligibility, you thereby dilute the resource that is available 
for the existing eligible programs?
    Ms. Bodine. It is hard to answer that in the abstract. I 
don't know who you are trying to expand the eligibility to 
include. I think in looking at that, you would want to look at, 
are these grant applicants that would then be providing the 
same kind of benefits.
    Mr. Baird. Mr. Zone, did you care to comment?
    Mr. Zone. Yes, thank you, Mr. Chairman. From our city's 
perspective, EPA has been a wonderful partner. One project that 
I cited, we worked very closely with EPA, and actually, they 
encouraged us to go in and demolish that structure. After we 
demolished it, surrounding that structure, there is a senior 
housing, there is a day care center, we found PCBs onsite. Now 
we are kind of in a tug-of-war with EPA where potentially there 
is a $6 million cleanup left on the site after we as a city 
have already invested nearly $3 million.
    We would like to see the city, from our perspective, have 
some sort of indemnification that if we work cooperatively with 
the Federal Government and go in and do the cleanup, that we 
are not the polluters of the property. We are the recipients of 
an abandoned, blighted property. We are just trying to abate a 
nuisance. If we could work more closely together and hold that 
being held liable, that would greatly aid our effort.
    Mr. Baird. I think you made that point well in your 
testimony. Thank you.
    Ms. Jones Hill?
    Ms. Jones Hill. Thank you, Mr. Chairman.
    The City of Dallas has two recommendations that we would 
like to place on the record for improvement of the program. We 
recommend that the EPA increase the brownfields revolving loan 
fund for major cities to $5 million per individuals grantee for 
multiple site, industrial brownfields projects. Secondly, we 
recommend establishing an opportunity to seek a waiver of the 
one-year time requirement for completion of cleanup on large 
projects.
    Thank you so much for allowing us to offer those 
suggestions for improvement.
    Mr. Baird. Outstanding suggestions and in both cases, from 
hard practical experience, it sounds like. Those are the best 
kinds of suggestions Committees can receive. Thank you for 
that.
    The Chair recognizes Mr. Boozman.
    Mr. Boozman. Thank you. I appreciate your patience today. I 
know this has been a hard day for you as well as for us, 
running back and forth. So we really do appreciate you.
    I would like to follow up on what you said, Mr. Zone, what 
you were just talking about, just throw it open to the panel 
real quickly. Would an exemption from CERCLA liability for non-
liable parties that do not take ownership of a brownfields site 
but are willing to take cleanup action, contribute cleanup 
funding or provide other substantial support to the cleanup 
site, would that encourage more brownfields site cleanups by 
such innocent parties?
    Ms. Bodine. Congressman, you prefaced that by talking about 
non-liable parties. Clearly, one of the barriers to brownfields 
redevelopment that had been identified was the fear of 
Superfund liability. The way that was addressed in the 
amendments in 2002 was to have new owners who were coming into 
the property, prospective purchasers, have them not be liable. 
So that is in the law right now. Now, to get the benefit of 
that liability exemption, you need to have done an 
investigation on the property, all appropriate inquiry. Then 
you also can't impede any cleanup that is going on. But under 
current law, if you didn't cause or contribute contamination 
and you are new to the property, then you are not liable.
    Mr. Boozman. So if the city wanted to go in and clean up 
the property, and they are not the owner of the property?
    Ms. Bodine. You can take ownership. If you are a new owner, 
you become what is called a prospective purchaser, and you are 
not liable. But you have to have done the all appropriate 
inquiry, you have to have done the site assessment, evaluating 
the property for contamination. The fact that you find 
contamination doesn't make you liable for it, but you have to 
have done the investigation.
    Mr. Boozman. So if a city that wanted to go in and just be 
helpful and clean up, is that what you are referring to, that 
is not an owner and doesn't want to be an owner?
    Ms. Bodine. Oh, I am sorry, I misunderstood the question. 
The statutory protection only applies to owners. It doesn't 
apply to a Good Samaritan who is coming in or a volunteer who 
is coming in, or a non-profit or a city.
    Mr. Boozman. Would it be helpful if we made it such that a 
city could do that, I guess is what I am asking, or another 
party?
    Ms. Bodine. The only issue I see on that, you would 
definitely encourage more people to participate in cleanup 
activity, and that is always a good thing. There may be an 
issue of control of the property that you would want to think 
about, because you would then have someone who isn't the owner. 
But there certainly could be a benefit to encouraging more 
cleanup activity if you have more people who would be willing 
to come in.
    Mr. Boozman. Yes, sir?
    Mr. Zone. We met all of the requirements that the EPA 
asked, and we worked very closely with them. Even after 
encouragement, we went in there and just tried to abate the 
nuisance. But we found ourselves after doing everything that 
they asked us to do, now when we found PCBs onsite, we 
immediately contacted them, they came in and did some more 
testing and said potentially, you have a $6 million cleanup 
effort that you might be responsible for, it is difficult for 
us to go and abate a nuisance and do the dirty work, for lack 
of a better term, and now find ourselves being responsible for 
that cost.
    Mr. Boozman. Yes, ma'am?
    Ms. Jones Hill. Congressman, if I may, thank you. Your idea 
of encouraging more persons to clean up is certainly a good 
idea. But encouraging a non-owner to clean up a site is an idea 
that we would want to think through very carefully, because of 
liability and ownership and control issues, an issue that I 
certainly would want to talk with my council colleagues about. 
I believe we would have to move very carefully in that 
direction.
    Mr. Boozman. Thank you.
    That is all I have, Mr. Chairman. We would like, if it is 
okay, to submit some things in writing, in the interest of 
time.
    Mr. Baird. Without objection, absolutely.
    The gentlelady from California, Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chair.
    I have a question for Ms. Bodine, our EPA representative. 
Actually, it is in light of reviewing subsequent testimony, and 
I am not sure if you will still be here, so that is why I 
wanted to ask the question now.
    Dr. Nancey Green Leigh, in her testimony, the written that 
we have, on page 5, it says, ``Given the public sector's 
emphasis on allocating scarce brownfields redevelopment 
resources to those properties that will realize the greatest 
market returns, oftentimes properties in small or local 
depressed neighborhoods are overlooked,'' things like 
laundromats, et cetera, in neighborhoods. So when I turn to, 
for example, in reference of 2002 Small Business Liability 
Relief and Brownfields Revitalization Act, my question would be 
to you, a representative of the EPA, what is your commitment 
and willingness to target the additional increment funds to 
brownfields neighborhoods with the worst health exposures and 
the greatest need of economic development?
    Ms. Bodine. Thank you. The proposals are evaluated and 
ranked and the funding is provided based on not just economic 
development, but community involvement, community benefits, 
environmental benefits, and the public health benefits that you 
are talking about. So that is taken into account.
    What we do find, though, and I refer to it in my statement, 
is that there is an issue where smaller communities don't have 
the programmatic capability to handle these grants. My 
colleagues here all have very great programmatic capability 
that is not shared, necessarily, by all the smaller communities 
around the Country. What we are looking at is trying to provide 
opportunities for those smaller communities to partner in 
coalitions with either States or counties or larger 
communities, so that they too can be the beneficiaries of the 
grants.
    Ms. Richardson. Do you have a percentage that you keep 
track of, of your allocations of neighborhood or more depressed 
areas versus larger downtown areas?
    Ms. Bodine. We track population, like under 100,000, and we 
track whether it is a HUB zone property, properties that are 
designated as particularly needed zones. So yes, we do track 
that.
    Ms. Richardson. Could you provide that to this Committee?
    Ms. Bodine. Yes, certainly.
    Ms. Richardson. And just with all due respect, I would push 
back a little with you. I happen to represent, one of the 
cities in my jurisdiction is the City of Long Beach, which is 
the fifth largest city in the States. I would encourage you, 
though, sometimes with cities, they may take the opportunity 
to, for example, improve their downtown area, versus doing one 
of their more depressed neighborhoods.
    So I would really be looking for what commitment would EPA 
have of the cities and organizations who are applying to say, 
we are not just going to leave it up to you to decide who gets 
it. Maybe there should be a percentage that is considered, 
given the fact that many smaller neighborhoods may not have the 
advocacy necessary to be able to apply. This would encourage 
those other cities or organizations to step up and say, okay, 
well, we need to make sure we are getting at least one in five 
years or one in ten years, or we are doing something to these 
communities.
    So we would also ask that you would consider a greater role 
that EPA might play in encouraging the consideration of these 
neighborhoods. Thank you.
    Mr. Baird. I thank the gentlelady. The gentleman from New 
York, Mr. Arcuri.
    Mr. Arcuri. Thank you, Mr. Chairman. I would like to thank 
the panel again for your patience today.
    I just have one very short question. Do you think, as 
involved with your cities, which are both very large cities, 
that it would be beneficial for you to have more flexibility in 
terms of how the money is spent? Very often a project starts, 
you get halfway through the project, things change, 
circumstances are different. Would some degree of flexibility 
or increased flexibility be beneficial?
    Mr. Zone. An excellent question, Congressman Arcuri. Every 
project is different. Once you put the shovel into the ground, 
you are going to find something you didn't expect was going to 
be there. The project that I cited was, we went in there 
because it was a public health hazard, and that is what put us 
in that situation. The EPA again has been a great partner to 
work with thus far.
    I have another brownfield site in my ward that was owned by 
the old Union Carbide and Energizer Company. We remediated that 
property. The alkaline battery was invented on that site. We 
call it Battery Park now. We remediated that site, about 15 
acres, to a residential standard. Now we are building 328 units 
of housing. It is just amazing. If we had that type of 
flexibility, it would greatly aid us in being able to do more 
types of developments exactly like the question you asked.
    Ms. Jones Hill. Congressman, thank you. Certainly, greater 
flexibility would be helpful to the cities. That is flexibility 
on the funding. Also, I want to reiterate that from Dallas' 
standpoint, some flexibility on the time requirement would be 
very, very helpful if we had the opportunity to waive that one-
year time requirement for the larger projects, because that 
one-year time requirement on the larger projects is really a 
critical issue. Flexibility on both the funding and the time 
would be very, very helpful, especially to our city.
    Mr. Arcuri. I think your point is very well taken. Do you 
have any specific suggestions on the kinds of flexibility that 
would be beneficial?
    Ms. Jones Hill. I would want to talk with our staff and my 
colleagues. But I would think if we had the opportunity for, 
perhaps a three-year time line, that would perhaps be much 
better for us.
    Mr. Arcuri. Great, thank you. Mr. Zone?
    Mr. Zone. If assessing the property and funding could be 
under one program, I think it would create more flexibility.
    Mr. Arcuri. Can you just expand on that a little bit?
    Mr. Zone. I am not the technical person. I brought my 
brownfields manager with me.
    Mr. Arcuri. So basically just to have a little more 
ability, money that is deemed for assessment that you would be 
able to use it in alternative ways?
    Mr. Zone. Yes, the funding that, what I understand now, the 
funding, that these are two separate funding streams. And if it 
was under one umbrella, it would give much more flexibility for 
those types of efforts.
    Mr. Arcuri. Very good. Thank you very much.
    Mr. Baird. With that, I very much thank the panel for their 
preparation work, for your work on this issue. We will look 
forward to further comments. With that, this panel is dismissed 
and I call the next panel to the table, and we will proceed.
    Thank you again for your patience with our hectic schedule 
today.
    The second panel, we thank also for your patience. I know, 
Dr. Leigh, you may have a flight to catch earlier, so we will 
try to accommodate that. Are there others who have urgent 
flights that we need to be cognizant of? What are your time 
frames, if I may ask? All right. We will try to accommodate 
that. What we will do is give very brief introductions.
    Mr. Mark Albrecht is Brownfields Manager for the Mayor of 
Akron, Ohio's Office of Economic Development, here on behalf of 
the National Brownfields Association. Mr. Steven McCullough, 
President and CEO of Bethel New Life, Inc. Dr. Nancy Green 
Leigh, Professor at Georgia Institute of Technology, College of 
Architecture. Mr. Jerome Leslie Eben, immediate past President 
of the American Institute of Architects. Mr. Gary Silversmith, 
President of P&L Investments.
    We will really urge you to keep your comments to five 
minutes. We have read the written comments as well. With that, 
we will begin with Mr. Albrecht. Thank you very much.

 TESTIMONY OF MARK ALBRECHT, NATIONAL BROWNFIELDS ASSOCIATION, 
 BROWNFIELDS MANAGER, MAYOR'S OFFICE OF ECONOMIC DEVELOPMENT, 
  CITY OF AKRON; STEVEN MCCULLOUGH, PRESIDENT/CEO, BETHEL NEW 
     LIFE, INC.; NANCEY GREEN LEIGH, PROFESSOR, COLLEGE OF 
 ARCHITECTURE, GEORGIA INSTITUTE OF TECHNOLOGY; JEROME LESLIE 
     EBEN, IMMEDIATE PAST PRESIDENT, AMERICAN INSTITUTE OF 
    ARCHITECTS NEW JERSEY; GARY SILVERSMITH, PRESIDENT, P&L 
                        INVESTMENTS, LLC

    Mr. Albrecht. Thank you, Mr. Chairman and Members of the 
Committee, for the opportunity to provide testimony today.
    I am wearing several hats today on behalf of the National 
Brownfields Association as well as the City of Akron. I will 
share my experience both as a member of the executive team of 
the National Brownfields Association, but also as a municipal 
brownfields practitioner.
    I serve on the Brownfields Association Advisory Board, but 
also work as the brownfields and economic development manager 
for the City of Akron, where I have been working on planning, 
economic development and brownfield projects for the last 30 
years. Just as way of background, NBA is a 501(c)(3) dedicated 
to promoting the responsible and sustainable development of 
brownfield projects by promoting the construction of green and 
sustainable buildings using energy-efficient technologies and 
recycled materials on environmentally-impaired properties, 
i.e., brownfields. NBA members have been able to improve local 
economies, increase local property taxes, reduce blight, clean 
up contaminated land, minimize sprawl, reduce greenhouse gas 
emissions and minimize the environmental footprint of new 
developments.
    Founded in 1999, the NBA membership has grown to more than 
1,400 members in the United States and Canada. They come from 
both the public and private sectors and include property owners 
and developers, investors, service professionals and 
representative from Federal, State and local governments, 
academia and non-profits. As the premier national brownfield 
organization, the NBA provides local, national and 
international perspective on the brownfield market through 
members in more than 20 chapters in the United States and 
Canada.
    For the last five years, the NBA has been the recipient of 
an EPA grant that has provided us the opportunity to do 
brownfield education and training to municipalities. We have 
successfully conducted more than 30 workshops throughout the 
Country to hundreds of municipal and State attendees, who have 
given us high marks. The goal of the workshops is to make 
municipal employees more conversant in the real estate language 
and the Brownfield redevelopment practices, so that they can 
attract additional private sector investment into the 
communities, and leverage Government funds.
    NBA also has started to host a deal flow conference. The 
first was held in 1999 and creates a marketplace where buyers 
and sellers of brownfields can meet and make transactions. 
After all, that is what brownfield redevelopment equating to 
economic development means. Last year, the Big Deals Conference 
attracted more than 1,000 attendees, and it showcased more than 
30 projects for redevelopment.
    U.S. EPA also holds an annual brownfields conference, and 
NBA has proposed to combine these two events, allowing EPA to 
save in excess of $1 million annually. We look forward to 
meeting with EPA to collaboratively work together to advance 
this important market.
    I would like to just kind of step back to Akron, Ohio for a 
brief moment, just to give you a sense as a local practitioner. 
The City of Akron is a prime example of the important role that 
brownfield transactions have had in improving the local 
economic condition of the city and the role that U.S. EPA has 
played with us. Akron is a city of 207,000, with an economic 
legacy in the industrial and manufacturing segment.
    We have had to transition. To give you a sampling, in 1970 
we had 35,000 rubber jobs, producing tires in Akron. By 1990, 
there were 3,000, today there are 300. We have been able to 
transition to an economy of plastics, polymers, metal-working, 
technology industries, largely predicated on our ability to 
recapture brownfields as the city contains 62 square miles but 
yet has less than 2 percent vacant land in which we can place 
these new businesses and industries.
    In the past ten years, we have been able to take advantage 
of three U.S. EPA grants to seed funding to assist with this 
brownfield recapture. I would like to just show a few images of 
Akron, if I can. This is a project that we used some seed EPA 
money. This is a national corporation for research in advanced 
elastomers. That was the before and after in reverse order. 
Former B.F. Goodrich company, which was actually a brownfield 
that was built in 1970, terribly contaminated with asbestos. 
Today it is the home of Gojo, which is the Purell hand cleaner. 
We are using it for the former Goodyear air dock facility.
    The major Ohio contribution here, we also used some U.S. 
EPA funding that will eventually house the new Missile Defense 
Agency's high altitude airship program. This is an important 
one that we used EPA funding on, to create the first new retail 
center in Akron in 40 years. As pre-development costs, the city 
had to take the lead and act as developer.
    An old contaminated power plant that is on the Ohio and 
Erie National Heritage corridor that has now a very popular 
300,000 users a year. It was a U.S. EPA grant for cleanup, we 
were able to take care of this arson fire problem using a 
demolition grant.
    We are currently involved with the major brownfield 
projects with Goodyear Tire and Rubber and Bridgestone 
Firestone Tire Company to retain their world headquarter and 
North American headquarters, respectively, in our community. 
These are critical opportunities for us if we are to take 
advantage of this.
    Very quickly, in summary, Akron, as well as other 
communities around the Country, has been very valuable, taking 
advantage of the U.S. EPA brownfields programs, invaluable to 
non-profits and local communities. It is an important first 
step in funding and addressing the brownfield program. We too 
would like to see greater flexibility in the program in terms 
of combining the assessment and cleanup under direct grants as 
well as the RLF. Most importantly, we would like to see the 
combination of the petroleum and city-wide hazardous grants 
into one grant program, thus moving things further.
    Thank you for this opportunity to present today. I will be 
glad to answer questions.
    Ms. Richardson. [Presiding] Thank you, Mr. Albrecht. We 
take your recommendations seriously, and obviously your success 
is why we are here today.
    Next we have Mr. Steve McCullough. He is the President and 
CEO of Bethel New Life, Inc.
    Mr. McCullough. Thank you to the honorable Members of the 
Subcommittee on Water Resources and Environment. Thank you for 
inviting me to testify today. My testimony focuses on the 
Environmental Protection Agency's brownfields program and how 
it can continue to be an effective tool in improving the 
quality of life for communities across the Country.
    Bethel New Life is a faith-based community development 
corporation located in Chicago's west side. Bethel began in 
1979 as a housing ministry of Bethel Lutheran Church to rebuild 
neighborhoods left in ruins after 1968's civil rights riots. 
Our mission is to realize God's vision of a restored society by 
empowering individuals, strengthening families and building 
neighborhoods through community-driven, solution-oriented and 
value-centered approaches.
    Bethel is nationally known for its pioneering community 
development initiatives, especially in the areas of sustainable 
urban growth, smart growth and urban context and brownfields 
redevelopment. Bethel has ben a part of the clean-up and 
redevelopment of seven brownfields sites in Chicago that have 
provided major economic stimuli to our lower-income community. 
We were recently a recipient of EPA's Smart Growth Award in 
2006.
    Our work in brownfield development is close 20 years old. 
We recently celebrated the opening of a new transit-oriented 
development project on a former brownfield. This development, 
called the Bethel Center, is a trend-sitting example of 
transit-oriented neighborhood revitalization. It is also a LEED 
certified Gold building.
    Our work around brownfield development has given us the 
opportunity to partner with the American Planning Association 
to train communities across the Country on putting together 
brownfield remediation strategies. The APA is the recipient of 
a brownfields training research and technical assistance grant 
from EPA. Creating community-based brownfield redevelopment 
strategies is a three-year initiative with the goal of helping 
community groups in low-income communities develop a new set of 
eyes to see brownfield sites as opportunities.
    Non-profit community development organizations are uniquely 
positioned in a number of key ways to revitalize communities 
through the brownfield redevelopment. First, community-based 
non-profits have the long-term vision and active presence 
necessary to guide revitalization efforts. Second, non-profits 
serve a crucial role as credible, neutral intermediaries 
between community and public and private entities advocating 
for brownfield redevelopment projects that are in the interest 
of the public good, not just in the interest of a private 
developer.
    Third, non-profits have the specialized brownfield 
knowledge to act as catalyst, managing and coordinating 
brownfield activities on behalf of and in support of community-
based organizations that would otherwise pass up these sites 
without the non-profit's assistance. Lastly, non-profits have 
the capacity to leverage brownfield funding with both private 
sector resources and with other public funds, including 
transit-oriented development, anti-sprawl and smart growth 
program funds.
    The Brownfields Act should recognize the tremendous value 
that non-profits, whether single-handedly or in partnerships, 
play in redeveloping brownfields by making non-profit 
organizations and non-profit controlled entities eligible to 
receive brownfields assessments and RLF grants, along with 
cleanup and job training grants. This represents a lost 
opportunity to maximize these Government resources, by taking 
advantage of the community development and financing 
infrastructure that has developed over the last 20 years, and 
make more efficient use of public and non-profit resources for 
successful brownfields redevelopment.
    Community development corporations and community 
development financial institutions and other non-profit 
institutions have a place in the infrastructure that will allow 
them to leverage these funds with other public and private 
resources and expeditiously deliver these resources to 
revitalize brownfields in the struggling neighborhoods of all 
sizes.
    The Brownfields Act should make non-profit organizations 
and non-profit controlled entities eligible to receive 
brownfield assessment and RLF grants, along with cleanup and 
job training grants. This change recognizes the tremendous 
value that non-profits, whether single-handedly or in 
partnerships, play in redeveloping brownfields.
    The 2002 Brownfields Act should require site ownership as a 
condition of eligibility to receive direct brownfield 
remediation grants or revolving loan fund sub-grants in order 
to ensure that the project moves forward and that responsible 
parties do not benefit from the grants. Many projects and 
otherwise eligible entities are willing and able to obtain site 
control prior to purchase for the purpose of conducting 
remediation but are reluctant to take ownership of contaminated 
brownfield properties prior to completion of remedial 
activities, due to uncertain liability exposure. This 
represents also a lost opportunity to revitalize many 
brownfields sites.
    Finally, the expansion, the last recommendation is 
expansion of EPA brownfield grant eligibility, including 
community development entities. A community development entity, 
otherwise known as a CDE, is defined by the Internal Revenue 
Code as any domestic corporation or partnership where the 
primary mission of the entity is serving or providing 
investment capital for low-income communities or low-income 
persons. The entity maintains accountability to residents of 
low-income communities through their representation on any 
governing board or any advisory board.
    In conclusion, EPA's brownfield program is a vital tool 
that should be allowed to evolve into an even more valuable 
resources to improve communities across the Country. Thank you 
for the time and opportunity to speak to you.
    Ms. Richardson. Thank you, Mr. McCullough. I think you are 
really speaking to some of the questions that our group here 
has had. Thank you for your testimony.
    Next we have Dr. Nancey Green Leigh, Professor of the 
College of Architecture with the Georgia Institute of 
Technology in Atlanta, Georgia. Welcome.
    Ms. Leigh. Good afternoon, Chairwoman Richardson and 
Members of the Subcommittee.
    As a Georgia Tech professor, I have been researching, 
writing and teaching about brownfields redevelopment since the 
early 1990s. Since EPA's programs were initiated to overcome 
the market failure and brownfield redevelopment caused by 
CERCLA, the brownfield industry has become a niche real estate 
market that relies upon public-private partnerships, employs 
between 5,000 to 10,000 people and has many high-profile 
redevelopment successes. There simply would not be the 
brownfield industry we have today without the EPA's programs 
and the 2002 Small Business Liability Relief and Brownfields 
Revitalization Act.
    But as others have noted, there is still much to be done. 
The number of brownfields that have been cleaned up through 
State voluntary programs represents only 5 to 10 percent of the 
total problem. My research suggest that for every known 
brownfield, there could be as many as 14 more than have not 
made it onto official lists. Further, new brownfields, such as 
meth fields, are still being created. It is likely that these 
new brownfields will be disproportionately located in 
disadvantaged areas.
    Brownfields fall into three groups: those with negative 
values where environmental liabilities far exceed their value; 
those with modest or neutral value; and those with strong 
positive values. The last group have very desirable locations 
and tend to be the bigger sites on which large scale 
redevelopment can occur.
    So far, the predominant brownfield redevelopment focus, 
both private and public, has been on the most marketable and 
larger properties, or the low-hanging fruit. The rationale for 
the public sector focus has been to maximize return on public 
investment while the private sector logically and appropriately 
is seeking to maximize profits. Largely missing from the 
national dialogue has been the issue of whether brownfields 
status impacts more than the individual property or brownfield. 
My own research has found that the presence of brownfields 
reduces the value of surrounding properties in a neighborhood. 
This of course leads to lower property tax revenue to pay for 
schools and essential services and to support economic 
development.
    There is legitimate concern over large, mothballed sites, 
but the remaining brownfield inventory is increasingly composed 
of small and medium size sites. Many would be considered 
marginal redevelopment prospects by the private sector. 
Neglecting their redevelopment acts as a barrier to 
neighborhood revitalization. In turn, the neighborhoods where 
they are located are left further behind from those that are 
being revitalized.
    The back to the downtown movement that is occurring in our 
major cities due to the rejection of suburban living by certain 
demographic groups, as well as firms seeking to avoid the cost 
of sprawl, has provided a helpful impetus for brownfield 
redevelopment. But it could also contribute to growing income 
and equality and displacement of low-income residents due to 
gentrification, unless EPA's brownfields programs become more 
focused on low-income neighborhoods.
    The Brownfields Act was aimed at promoting economic 
development and achieving environmental restoration. Since such 
a small percentage of brownfields have been redeveloped, the 
Act clearly needs to be reauthorized and its funding 
substantially increased. It also needs revision. To counter 
trends in urban inequality and gentrification displacement, the 
reauthorized Act should target the additional increment in 
funds and placement of EPA staff and brownfields neighborhoods 
with the worst health exposure and greatest need for economic 
development.
    It should require a demographic and economic impact 
assessment of projects and gentrification prevention or redress 
plans. It should emphasize a neighborhood approach if there are 
community-wide, multi-purpose grants. And it should encourage 
the development of workforce housing.
    EPA adopted an environmentally responsible redevelopment 
and re-use initiative for encouraging the best sustainable 
environmental practices in brownfields redevelopment in 2004. 
However, there appear to have been only two pilot projects 
resulting from this initiative.
    To further the greening of brownfield redevelopment, the 
reauthorized Act should encourage life cycle assessment 
analysis to minimize environmental burdens of brownfield 
projects, encourage on-site remediation strategies, promote 
deconstruction over demolition when buildings are removed, and 
require green building and site development standards.
    In conclusion, my own view is that EPA's Brownfield Act and 
the program have fostered more innovation and economic 
development, leading to a sophisticated brownfields industry, 
than environmental solutions. However, EPA could be a real 
catalyst for sustainable development that maximizes both 
objectives if it requires, rather than simply encourages, green 
redevelopment standards. These standards would reduce energy 
and consumption costs, lower building and site maintenance 
costs, create healthier living and work spaces, foster new 
businesses and jobs in the brownfield sector as well as in the 
larger economy.
    Thank you for the opportunity to present my testimony. I 
would be happy to answer your questions.
    Ms. Richardson. Thank you, Dr. Leigh, for not only your 
testimony but your work in this area.
    Next we have Mr. Jerome Leslie Eben, the immediate Past 
President of the American Institute of Architects from Trenton, 
New Jersey. Welcome, thank you for being here.
    Mr. Eben. Thank you, Madam Chairman and Members of the 
Subcommittee. The AIA is a professional society representing 
82,000 licensed architects across our Country. We are leaders 
in our communities and we play a major role in strengthening 
America's economic vitality.
    I would like to also commend the Committee for holding this 
hearing today on a topic of vital concern to both us as 
architects and you as our political leaders in not only 
suburban communities but in urban communities across the 
Country. My home State of New Jersey is home to at least 20,000 
contaminated sites, the majority of which qualify as 
brownfields. Essex County, where I was born, where I live and 
where I work, has over 1,000 brownfields.
    Newark is in Essex County, and is the third oldest city in 
the United States, settled in 1666. It is one of the most 
economically charged cities in America. It has 500 certified 
brownfields, probably hundreds more which sit unoccupied, 
contributing to the city's blight. Bringing these contaminated 
sites back to life through brownfields redevelopment is 
imperative to restoring American cities, not only like Newark, 
but other American cities that were mentioned here today, 
Akron, Cleveland, other cities.
    Architects throughout the Nation understand the enormous 
significance of redeveloping these sites. We are committed to 
planning the design and construction of vital, healthy 
communities, and we are understandably concerned that 
brownfields sites blight neighborhoods and need revitalization. 
We have long supported Congressional efforts to facilitate 
brownfield cleanup and redevelopment.
    However, this Committee, the AIA and EPA know that there 
are still hundreds of thousands of brownfields sites that sit 
vacant and under-used. Therefore the Federal brownfields law 
must be updated to provide communities with the necessary tools 
and resources to clean up these sites.
    Redeveloping brownfields sites produces undeniable economic 
benefits, I think that has been testified to here today, 
demonstrating that intelligent Federal spending on brownfields 
will provide the needed economic investment for cities and 
communities nationwide. The message is clear, investing in 
brownfields will boost the economic vitality of our cities, our 
communities, create jobs, stimulate the economy at a time when 
Congress is exploring ways to do that, to stimulate the 
economy, particularly in the housing and real estate sections. 
Investing in brownfields should be an important priority.
    Therefore, we strongly urge the Committee to increase 
funding levels in the program and reauthorize this legislation. 
It is clear more brownfields exist than can be redeveloped. 
Each year, EPA is faced with the difficult task of choosing 
which projects to provide grant monies, and which projects to 
exclude. Given the extensive competition among applicants for 
limited grant funding, we feel that including additional 
project qualifications in the programs grant-making criteria 
would direct funding to the best possible projects.
    One such condition is energy efficiency, mentioned by you, 
Congresswoman. We believe that the efficiency in green building 
standards should be a factor in determining which grant 
applications do receive this funding. Most brownfield 
redevelopment projects will require major renovation of 
buildings onsite and in most cases, new buildings altogether. 
It makes sense for buildings to be designed in an intelligent, 
energy-efficient way. Architects and builders across this 
Country are utilizing the most modern design techniques, 
materials and building systems to achieve the significant 
energy savings in new and renovated buildings.
    Energy-efficient or green buildings offer countless 
benefits to their inhabitants, including reduced energy use. 
Given that many brownfields are located in low-income areas, 
such as Newark, reduced energy costs for future building 
occupants should be factors in determining which projects 
receive these grant monies.
    Furthermore, reclaiming contaminated sites helps improve 
the natural environment. Once a brownfield site is cleaned up, 
it is counter-productive then to build an energy-guzzling 
building on that very same site, especially when the cost of 
green buildings are negligible. Thus, we strongly believe that 
brownfield redevelopment projects that will result in energy-
efficient and green buildings should be given a preference as 
the EPA chooses which projects to do in the future.
    When this Committee attempted to reauthorize the 
brownfields law during the 109th Congress, language was 
included requiring the EPA to include the use of green 
standards and energy efficiency as criterion in grant-making. 
We urge the Committee once again to take this route to ensure 
our Nation that the brownfields are redeveloped in the smartest 
and most energy-efficient way.
    America's architects are committed to designing healthy 
communities. In order to redevelop some of the most 
economically depressed neighborhoods, the Federal Government's 
brownfields program must be expanded. This will facilitate the 
cleanup of blighted areas across America. The AIA strongly 
supports this Committee's efforts to improve the brownfields 
program, and I welcome your questions.
    Ms. Richardson. Thank you, Mr. Eben.
    We are going to take a brief pause, if you don't mind, Mr. 
Silversmith. We realize Mr. Albrecht has to hop on a plane in 
five minutes. So we are going to deter for a slight second and 
have Mr. Boozman, who is our Ranking Member from Arkansas, ask 
a question. Then we will continue on.
    Mr. Boozman. Thank you. I have one that I would like to 
throw out for the panel, and why don't you start, Mr. Albrecht, 
then you can go ahead and leave if you would like. Believe me, 
it doesn't matter if I start, if I have a 1:00 o'clock flight 
or a 5:00 o'clock or an 8:00 o'clock at night, I am constantly 
running, as all of us are, to catch that. So I understand.
    Dr. Leigh mentioned about the mothballed sites in her 
testimony. How can we make it possible for the so-called 
mothball sites to be cleaned up and put into productive use? 
Would mothballed sites be cleaned up if protections from 
liability were made available?
    Mr. Albrecht. I am not an environmental attorney, but from 
a practical standpoint at the city, the one slide that I showed 
you of an old Imperial Electric that was an arson fire, we took 
ownership of that just probably eight months prior to the 
January 11th, 2002 rule that kicked in the all appropriate 
inquiry. What we were able to do, through the cooperation of 
Region 5 in Chicago was we had to demonstrate that we did do 
some level of due diligence prior to that.
    We really feel locally that that particular benchmark rule 
is inappropriate. As Cleveland demonstrated, we have been land-
banking properties for 10 years. Some of those have been in our 
portfolio, the first project I showed you was the AES Elastomer 
Systems project. We took that on initially to demolish the 
building. It turned out the company wanted it rehabbed.
    But we took it on blind faith. So you need to provide us 
some flexibility in how our ownership patterns work in that 
regard. Thank you.
    Mr. Boozman. With the Chair's permission, then, you can go 
ahead and go. Is that all right, Madam Chair?
    Ms. Richardson. Yes, you are released, and thank you very 
much for your testimony.
    Mr. Boozman. Yes, thank you very much.
    Do the rest of you have anything to say about that?
    Mr. Silversmith. If I may, just a few things. Number one, 
some of the cities are afraid to exercise eminent domain or 
otherwise foreclose for back taxes on these mothballed 
properties. Because under CERCLA, they are not liable if it is 
an involuntary acquisition. The issue among the lawyers is, if 
you take it by eminent domain or for back taxes, was it an 
involuntary acquisition. So consequently, some of the 
properties remain mothballed because the liability relief is 
not broad enough for the cities.
    In addition, there are some tenants who come into 
properties that are already contaminated. The responsible party 
is the owner, and the tenant does not have a liability release 
under CERCLA. Then finally, gas stations are not exempt. So 
when we come in to clean up gas stations, there is an issue 
there for liability.
    So pursuant to your questions, there clearly could be an 
expansion of the liability relief.
    Mr. Boozman. Good. Thank you very much. Thank you, Madam 
Chair.
    Ms. Richardson. Did anyone else want to respond? Okay, we 
will continue with our last panelist here. We have Mr. Gary 
Silversmith. Thank you for comment on that question. He is 
President of P&L Investments, Inc. here in Washington, D.C. 
Thank you, and welcome.
    Mr. Silversmith. Thank you, Madam Chairwoman, and my 
Valentine to the Subcommittee is that I am your last witness.
    I am the President, as you mentioned, of P&L Investments, a 
national brownfields investor and developer headquartered here 
in Washington, D.C. We are involved in the cleanup and 
redevelopment of dozens of properties around the Country, 
ranging from an abandoned gas station in Los Angeles that we 
are converting to affordable housing to cleaning up an old 
shopping center in Maine that we are releasing.
    We not only acquire large brownfields held by major 
corporations, such as AIG Environmental and General Motors, but 
we also clean up and redevelop many small properties, including 
a truck stop in Denton, Texas, near Madam Chairwoman's district 
office.
    We were told that were are the first company in America to 
get permission to convert a Superfund site to residential use. 
Before cleaning up the Superfund site, it was contaminated with 
PCBs, mercury, and asbestos. The property consisted of a 
dilapidated factory building occupied by drug dealers and 
arsonists. In fact, the EPA's onsite trailer was burned down.
    We demolished these buildings and we cleaned up the site. 
The townhouses built on the land appreciated over 300 percent 
in the first four years. So the community not only got rid of a 
drug-infested blight, but the residents made money. Also, the 
EPA wrote a complimentary article about the project in their 
Cleanup News publication, and EPA gave us a very important 
liability release.
    In Pennsylvania, we took an abandoned 90-acre asbestos 
brake plant and asbestos landfill, and we converted the plant 
to an industrial park with high-tech companies. We capped the 
landfill with asphalt and converted it to a commercial parking 
lot. For this project, we received a liability release from the 
Commonwealth of Pennsylvania. We would have never undertaken 
this project without the liability relief for innocent 
purchasers provided in the brownfields law.
    The Federal brownfields law also recognizes the critical 
importance of public-private partnerships in bringing these 
contaminated properties back to productive use. We are 
currently involved in an innovative public-private partnership 
with an Ohio community where we are converting a landfill to a 
golf course with new commercial buildings around the golf 
course. As part of this partnership, the local government 
entity will receive 25 percent of the profits. This project 
would not have been possible without the investment of both 
State and Federal grant monies.
    While the Federal brownfields law has stimulated the 
revitalization of thousands of properties around the Country, 
those of us in the industry have learned a great deal since the 
law was passed six years ago. As part of my written testimony, 
I have attached recommendations developed by the National 
Brownfields Coalition, which I wholeheartedly support. Based 
upon my experience in the field, I would like to highlight just 
a few of the recommendations.
    Number one and most importantly to me, Congress should 
increase the ceiling on brownfield cleanup grants. As you know, 
the maximum amount that EPA can provide for a cleanup grant 
under the current law is $200,000. There are many sites where 
the cleanup cost is millions of dollars. In these cases, 
$200,000 from EPA is usually not enough help, even taking into 
account funding from other sources. As a result, these sites 
are usually mothballed.
    Number two, pursuant to Congressman Arcuri's question, the 
Government should provide flexible multi-purpose grants. The 
slow timing and the lack of flexibility with the Federal 
brownfield grants is a real problem. Under the current grant 
process, there is a lengthy delay between the time of the grant 
application and the time the funding is available. In addition, 
the grants are for only either assessment or cleanup. Moreover, 
the cleanup grants are typically tied to a specific site.
    Local governments could really use multi-purpose grants 
that are processed quickly that can be used for assessment and/
or cleanup and that can be employed in a variety of brownfield 
properties.
    Congress should make it clear that Federal grants can be 
used for demolition and site clearance. For many of the larger 
projects we undertake, demolition and site clearance are major 
costs. For example, we are now converting an abandoned factory 
in Baltimore County to mostly park land. One reason the cleanup 
is delayed is because the prospective purchaser, the Maryland 
State Park System, would like the abandoned factory demolished 
as part of the cleanup. But the State Park System cannot get an 
EPA grant for all of the demolition. If EPA could award a more 
flexible grant, then the demolition could proceed.
    In summary, the 2002 brownfields law was a milestone for 
brownfield redevelopment. And it should be expanded to fund 
both bigger grants and to be more flexible in its application.
    In addition, pursuant to Congressman Boozman's question, 
its liability relief should be expanded. After all, brown to 
green is good. Thank you.
    Ms. Richardson. Thank you very much, Mr. Silversmith.
    Any further questions, Mr. Boozman?
    Mr. Boozman. I don't think so, Madam Chair. We probably 
will have some that we would like to submit, with your 
permission, though.
    Ms. Richardson. Absolutely. Seeing no further questions, 
first of all, I would like to thank the panelists for your 
work, for your testimony as well as your time today. On behalf 
of Chairwoman Johnson, and the entire Subcommittee, we want to 
recognize your comments and your recommendations into the 
record and assure you that they will be considered in our 
future deliberations. As we close, we want to thank the 
witnesses and suggest that any Members, whether present at this 
moment or coming forward on this Subcommittee, that we might 
have follow-up questions that we would submit to you. We ask 
that you would respond to them in a timely fashion.
    We appreciate your cooperation and your valuable 
participation today, especially given the hour and your 
patience with us. This hearing is adjourned.
    Thank you.
    [Whereupon, at 5:28 p.m., the Subcommittee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
</pre></body></html>
